Fs
I
2311 Douglas Street COC eg KL E s

Omaha, Nebraska 68102-1214 i
Est. 1923

E-Mail Address:
contact@cocklelegalbriefs.com

Web Site

1-800-225-6964
www.cocklelegalbriefs.com

(402) 342-2831
Fax: (402) 342-4850

No. 20-559

JANE DOE, PETITIONER
v.

UNITED STATES OF AMERICA

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF FOR GRADUATES
OF U.S. SERVICE ACADEMIES AS AMICI CURIAE SUPPORTING PETITIONER in the above
entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b), being
prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes, and this
brief contains 3831 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d),

as needed.

Subscribed and sworn to before me this 30th day of November, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

Remsen) Kerse. Q.Llaoo Ondeneh. Chl

My Comm. Exp. September 5, 2023
Notary Public Affiant. 40065
